FEDERAL COMMUNICATIONS
      COMMISSION
    OFFICE OF INSPECTOR GENERAL




 Report on Audit of the Federal Communications Commission
          Payroll Management & Financial Controls

             Audit Report No. 04-AUD-10-22

                    December 5, 2005
                 Report on Audit of the Federal Communications Commission
                          Payroll Management & Financial Controls

                                                 TABLE OF CONTENTS




EXECUTIVE SUMMARY ....................................................................................................1

BACKGROUND ....................................................................................................................1

AUDIT OBJECTIVE & SCOPE ............................................................................................3

AUDIT METHODOLOGY ....................................................................................................4

AUDIT OBSERVATIONS.....................................................................................................4

APPENDIX 1-Summary of Findings......................................................................................8

APPENDIX 2-Detailed Findings & Recommendations ........................................................12

APPENDIX 3-Management Response …………………………………………………… 31





EXECUTIVE SUMMARY

We have conducted an audit of the Commission’s payroll management and financial controls
as part of our annual audit plan. We initiated this audit to review and test the payroll process at
the FCC. The primary objective of the audit was to determine and report on compliance with
applicable laws and regulations and policies and procedures. Specific audit objectives included:

    Documenting our understanding of all phases of the payroll process and key internal
     controls over payroll and related areas;
    Testing key controls in operation and ensure transactions recorded in the payroll system
     are supported by appropriate pay-affecting documents and that costs are charged to the
     right program;
    Determining whether clear and distinct separation of duties are in place throughout all
     phases of the process;
    Performing separate tests on leave and earnings data;
    Assessing the risk of errors or other problems in recording, reviewing and reconciling
     payroll transactions; and
    Performing other testing as necessary.

Overall, we determined FCC is not in substantial compliance with established policies and
procedures, and lacks effective monitoring activities to ensure compliance with applicable laws
and regulations. Even though we noted several observations relating to personnel and payroll
process that we consider as positive, we identified several non-compliances with FCC policies
and procedures and compiled them into fourteen (14) reportable conditions. We assigned a
control risk level of “High” to one (1) and “Moderate” to thirteen (13) of the reportable
conditions. We also made recommendations for improvement for each condition.

In their November 3, 2005 response to the audit findings, FCC management agreed with twelve
(12) and partially agreed with two (2) of the findings. We consider management’s responses to
be adequate.

Our audit was planned to include steps to provide reasonable assurance that material instances of
noncompliance, which directly relate to the payroll process, are detected and reported. In
accordance with the definitions in the GAO Policy titled Assessing Compliance with Applicable
Laws and Regulations, most of the exceptions noted were mainly attributed to “Errors” defined
as “Unintentional non-compliance with applicable laws and regulations and/or misstatement or
omissions of amounts or disclosures in financial statements”.

BACKGROUND

In its survey of the Commission’s Flexible Workplace Schedule Time and Attendance (T&A)
reporting in fiscal year 2004, the Federal Communications Commission (FCC) Office of
Inspector General (OIG) determined that an audit of the FCC’s payroll management and
financial controls should be performed.




                                                1
The survey was the preliminary audit work done before an audit and was not an audit conducted
in accordance with Government Auditing Standards (i.e., GAO “Yellow Book” standards). The
purpose of the survey was to gather general working information on important aspects of an
entity, activity or program, and to determine the nature and extent of any subsequent audit effort.
This included testing the Flexible Work Schedule policies and procedures, and FCC employees’
compliance with those procedures. The survey results noted discrepancies with the
Commission’s time reporting policies and procedures, and numerous instances of employee non-
compliance with the FCC’s Flexible Workplace policies. Accordingly, the OIG determined that
an examination of the Commission’s payroll management and financial controls was warranted.

As of February 28, 2005, FCC’s fiscal year (FY) to date payroll costs amounted to $91.24
million or a monthly average of $18.24 million with 1,945 total employees. In FY 2004,
monthly payroll costs amounted to $18.58 million, ($223 million for the year) or 81.6% of the
total salaries and expense appropriation. The payroll process therefore is a significant aspect of
FCC operations.

The Human Resources Management (HRM) Division of the FCC is headed by an Associate
Managing Director who is responsible for the overall direction of Commission programs related
to management of human resources, administration of personnel management, maintenance of
payroll and personnel record systems, and employee assistance. The division has four service
centers: Recruitment and Staffing Service Center, Payroll and Benefits Service Center, Labor
Relations and Performance Management Service Center, and Learning and Development Service
Center. Only two of the service centers, the Recruitment and Staffing Services Center, and the
Payroll and Benefits Center generate activities that significantly impact the payroll process and
net costs. Other units involved in the payroll process include FCC’s Financial Systems
Operations Group (FSOG), the National Finance Center (NFC), who prepares and pays salaries
on behalf of FCC, and the National Business Center, who ensures payroll transactions are
recorded in FCC’s general ledger system, Federal Financial System (FFS).

In fiscal year 2003, the internal control report1 upgraded all prior payroll findings to reportable
conditions from previous management letter comment classifications. Under standards issued by
the American Institute of Certified Public Accountants (AICPA), reportable conditions are
matters coming to the auditor’s attention relating to significant deficiencies in the design or
operation of internal control that, in their judgment, could adversely affect the agency’s ability to
record, process, summarize, and report financial data consistent with the assertions by
management in the financial statements. This condition was repeated in the fiscal year 2004
internal control report. FCC management indicated that a number of initiatives have been
implemented by management to address the findings, including: contracting the services of an
outside contractor to conduct audits for all FCC employees identified with leave discrepancies
and performing periodic reconciliations between the systems. In addition, management stated
that HRM reviews bi-weekly error reports and works with timekeepers, employees, and
supervisors to immediately correct errors that occur after the audits are performed.



1
 OIG Audit Report No. 03-AUD-05-07, Report on the Federal Communications Commission Fiscal Year 2003
Financial Statements, dated December 19, 2003.


                                                   2
HRM has implemented a number of policies and procedures to facilitate the achievement of
division goals and objectives. Some of the major policies and procedures documented in various
manuals are: the FCC Employee Handbook; Guide to Processing Personnel Actions;
Supervisor’s Handbook on Administering Leave and Alternative Work Schedules; Procedures for
Processing Payroll Rejects; Pay, Leave, T&A Manual; and FCC Personnel Manual-Disciplinary
Actions. Also, as a Federal agency, FCC is required to comply with various laws and
regulations, circulars and guidelines issued by the Office of Management and Budget, the
General Accounting Office (GAO), and the Office of Personnel Management (OPM). Some of
the payroll related laws and regulations the FCC is expected to comply with are as follows:

      Civil Service Reform Act of 1978, as amended;
      Fair Labor Standards Act of 1938;
      Civil Service Retirement Act of 1930;
      Federal Employees Health Benefits Act of 1959;
      Federal Employees Group Life Insurance Act of 1980;
      Federal Employees Compensation Act; and
      Pay and Allowance System for Civilian Employees.

In addition, the Joint Financial Management Improvement Program (JFMIP) on federal financial
management systems provided minimum standards for a human resources and payroll system.
Based on an interview with HRM management, with the exception of the payroll process
handled by NFC, the above JFMIP System Requirement for HRM has not been fully
implemented. Additionally, there is no current directive to fully implement JFMIP at FCC.

Our audit tests were designed to comply with auditing standards generally accepted in the United
States of America and the standards applicable to performance audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

AUDIT OBJECTIVE AND SCOPE

OIG contracted with Clifton Gunderson LLP (CG) to document, review and test the payroll
process at the FCC. The primary objective of the audit was to determine and report on
compliance with applicable laws and regulations and policies and procedures. The specific
objectives of the audit as outlined in the task order were to:

1. Document a complete understanding of all phases of the payroll process (including ancillary
   areas such as leave, taxes, etc.). This understanding should include a review of all existing
   documentation, reports, etc. and should include required steps from all parties including
   employees, supervisors, human resources and accounting personnel.

2. Document key internal controls over payroll and related areas.

3. Test key controls in operation and ensure transactions recorded in the payroll system are
   supported by appropriate pay-affecting documents and that costs are charged to the right
   program. Also, determine whether clear and distinct separation of duties is in place
   throughout all phases of the process.



                                                3
4. Perform separate testing on leave and earnings data, paying particular attention to differences
   between internal and external sources.

5. Assess the risk of errors or other problems in recording, reviewing and reconciling payroll
   transactions and performing other testing as necessary.

AUDIT METHODOLOGY

We conducted interviews with appropriate management personnel in HRM to obtain and
document our understanding of the FCC’s payroll process phases. In addition, we designed
questionnaires relating to management and operation controls and system functionalities. We
obtained management responses to the questionnaires in order to confirm compliance with
related policies or procedures, laws and regulations, and guidance. We also performed risk
assessments by assessing the following internal control interrelated components: control
environment; control activities; information and communication; and monitoring, as applicable
to HRM.

Based on our understanding of the processes, we identified and documented key internal controls
over payroll for each phase. We reviewed the policies and procedures manual and designed our
audit tests to verify FCC’s compliance with key aspects of the implemented policies and
procedures, circulars, and guidelines, as well as applicable laws and regulations. We selected
samples from each phase to test compliance and effectiveness of identified key controls. In
selecting our sample size for testing, we used CG’s sampling control form and determined a
sample size of 12 that was applied to each phase. Accordingly, our actual sample size ranged
from 5 to 24 items, depending on the nature and type of controls tested within each phase.

We initially communicated to HRM the results of our audit as exceptions and responses received
were reviewed to determine their validity as findings. For each finding, in addition to the
standard components (such as criteria, condition, effect, and cause as defined in Generally
Accepted Government Auditing Standards), we assigned a control risk level classified as one of
the following: High, Moderate, or Low consistent with GAO/PCIE’s Financial Audit Manual
(FAM) definitions. These risk levels are defined as follow:

Low Risk:             Existing controls will prevent or detect any aggregate misstatements that
                      could occur in the management assertion in excess of design materiality.

Moderate Risk:        Existing controls will more likely than not prevent or detect any aggregate
                      misstatements that could occur in the management assertion in excess of
                      design materiality.

High Risk:            Existing controls will more unlikely than likely prevent or detect any
                      aggregate misstatements that could occur in the management assertion in
                      excess of design materiality.

AUDIT OBSERVATIONS



                                                4
Overall, we determined FCC is not in substantial compliance with established policies and
procedures, and lacks effective monitoring activities to ensure compliance with applicable laws
and regulations. Our audit was planned to include steps to provide reasonable assurance that
material instances of noncompliance, which directly relate to the payroll process, are detected
and reported. In accordance with the definitions in the GAO Policy titled Assessing Compliance
with Applicable Laws and Regulations, most of the exceptions noted were mainly attributed to
“Errors” defined as “Unintentional non-compliance with applicable laws and regulations and/or
misstatement or omissions of amounts or disclosures in financial statements”.

During the audit we noted the following observations relating to personnel and payroll process,
which we consider to be positive:

1. The HRM Division operates with the following four centers with each being headed by a
   Chief: Recruitment and Staffing Service Center, Payroll and Benefits Service Center, Labor
   Relations and Performance Management Service Center, and Learning and Development
   Service Center. The specific responsibilities for each center are documented in Performance
   Evaluations and Records Management’s (PERM’s) functional statements and organizational
   charts located on FCC’s intranet site.

2. Official Personnel Folders (OPFs) are maintained for all employees as required by OPM.

3. There are policies and procedures manuals for all major personnel and payroll activities.
   However, most of the manuals have not been updated in a long time. HRM is currently in
   the process of reviewing the FCC personnel manual and updating documents.

4. Leave audits are now being regularly performed by timekeepers on employee balances that
   appear on the Leave and Error Report.

5. Procedures for authorizing and processing personnel actions are effectively documented and
   properly administered.

6. Time and Attendance (T&A) audits are conducted for all separating employees to determine
   accurate figures for leave balances including annual leave and credit hours used for lump
   sum computations. In addition, HRM generates TA 2004 report, Report of All Hours
   Transmitted, every pay period. These reports are submitted to the Assistant Bureau Chief for
   Management, who circulates the report to supervisors to review and report any timekeeping
   discrepancies to HRM.

   Based in inquiry with HRM, FCC finalized implementation of STAR 4.0 in May 2005, pay
   period 9. STAR 4.0 is a Web-based system used by agencies to prepare, print and transmit
   T&A reports to NFC for processing. As indicated in the STAR 4.0 manual, because it is a
   real-time Web-based application, accounting information is validated through the
   Management Accounting Structure Code System (MASC) as timekeepers enter each line on
   the T&A. This helps eliminate errors which result in fewer corrected T&As. In addition, the
   MASC is used to maintain a detailed record for each employee at a specific T&A contact



                                                5
   point. The record contains information relating to the employee’s pay plan, work schedule,
   and other pertinent employee data needed for T&A reporting.

7. The NFC system is integrated into the FFS which minimizes manual intervention.

8. Payroll transactions, including benefits and deductions, are properly classified by object
   class, recorded, and posted to the respective general ledger accounts. Also, reconciliations
   are performed on a monthly basis.

9. System ability to generate separated employee reports (CULP99) from the NFC system and
   missing T&A reports (CULP0013) simultaneously on the Tuesday and Wednesday of the
   first week of the following pay period facilitates the identification of potential errors to the
   payroll file.

10. The Financial Systems Operations Group (FSOG) systems accountant researches rejected
    transactions in FFS due to incorrect project codes in a timely manner to enable posting of
    payroll transactions.

11. The FSOG systems accountant reconciles NFC payroll data to FFS every pay period by
    verifying that the NFC Interface Balance Sheet (NFC provided) amounts agree with the FFS
    totals generated by the FOCUS programs.

However, we identified several non-compliances with FCC policies and procedures. We
compiled these exceptions into the following 14 conditions (details are provided in Appendix 1):

   1. Poor controls over termination of separated employees’ network access;

   2. Errors in completing cost accounting worksheets;

   3. Errors in completing and certifying T&A reports;

   4. Errors in documentation and authorization of leave taken;

   5. Lack of a completed HRM vulnerability assessment;

   6. Inadequate controls over correcting invalid project codes;

   7. Errors in documenting and authorizing overtime, and paid/compensatory time in lieu of
      paid overtime;

   8. Reported credit hours lacked supporting documentation;

   9. Lack of documentation to support leave hours donated by outside agency employees
      under the leave transfer program;

   10. Lack of supporting documentation for compressed work schedules (CWS);



                                                 6
   11. Lack of supporting documentation for leave without official pay (LWOP);

   12. Lack of documentation for the approval of negative leave;

   13. Improper approval to participate in the flexible workplace program; and

   14. Ineffective monitoring of leave balances in excess of the allowable leave thresholds.

On November 3, 2005, FCC management provided their formal management comments to the
findings detailed in the September 28, 2005 draft audit report. FCC management agreed with
twelve (12) findings and partially agreed with two (2) findings. FCC’s formal management
comments, in their entirety, are provided with this report as Appendix 3. Refer to Appendix 3
for management’s detailed responses. We consider management’s responses to be adequate.




                                               7
                                                                                    Appendix 1
                                                                             Summary of Findings
Our audit of Payroll and Management Financial Controls focused mainly on the following
control types: Compliance, Financial, and Operational Controls. These controls are defined as
follows:

Compliance Controls:        A process effected by management and other personnel, designed to
                            provide reasonable assurance that transactions are executed in
                            accordance with: (i) laws governing the use of budgetary authority
                            and other laws and regulations that could have a direct and material
                            effect on the entities financial statements or required supplemental
                            stewardship information; and (ii) any other laws and regulations and
                            government-wide policies identified in OMB audit guidance.

Financial Controls:         The financial controls provide reasonable assurance that financial
                            events are recorded and reported accurately, timely, and completely
                            in accordance with management assertions. Such controls could
                            prevent or detect material misstatement in financial statement
                            assertions.

Operational Controls:       Operational controls are management policies and procedures
                            designed to carry out organizational objectives, such as planning,
                            productivity, programmatic, quality, and effectiveness objectives.
                            Operation controls provide reasonable assurance that an organization
                            effectively and efficiently meets its goals.

Overall, we assessed a control risk of “low risk,” “moderate risk,” or “high risk” for each
identified finding.




                                                 8
                                                                             Appendix 1
                                                                      Summary of Findings
Finding       Control Objective                      Condition                 Risk Levels
                    Area
PMFC-1    Network Access Control      Network accounts of separated             Moderate
          (Management) of Separated   employees were not disabled on a
          Employees                   timely basis. In fiscal year 2005,
                                      our review of the user properties
                                      printout for six (6) separated
                                      employees showed an average
                                      accounts disabling period of 6.5
                                      weeks.
PMFC-2    Completion of Cost          Proper completion of the cost             Moderate
          Accounting Worksheet        accounting worksheet (CAW) as
                                      the basis for generating a T&A
                                      report was not being enforced.
                                      Specifically, we noted, (i) instances
                                      of missing CAW, (ii) absence of
                                      employees’ initials, and (iii)
                                      recorded hours on CAWs not
                                      agreeing with Form A-489, Time &
                                      Attendance (T&A) Report.
PMFC-3    Certification of T&A Report Certification of the T&A reports by       Moderate
                                      supervisors, a significant task in the
                                      payroll process, does not meet
                                      established criteria for T&A
                                      certification. We noted 42% of
                                      T&A reports audited lacked one or
                                      all of the following required control
                                      actions: employee’s signature,
                                      timekeeper’s initials and
                                      supervisor’s signature.
PMFC-4    Leave Authorization and     Implemented guide for                       High
          Documentation               administering different leave types
                                      was not strictly enforced.
                                      Significant deficiencies noted
                                      include: recorded leave not
                                      supported by Form SF-71, Request
                                      for Leave or Approved Absence,
                                      leave date precedes the approved
                                      date on the SF-71; and reported
                                      hours on T&As were different from
                                      hours on Leave and Earnings
                                      Statement (LES).
PMFC-5    Vulnerability Assessment    As of April 15, 2005, HRM had not         Moderate
                                      performed a vulnerability
                                      assessment to identify any of its
                                      service centers’ or programs’


                                           9
                                                                           Appendix 1
                                                                    Summary of Findings
Finding       Control Objective                    Condition                 Risk Levels
                   Area
                                   susceptibility to the following:
                                   waste, loss, unauthorized use, or
                                   misappropriation of funds;
                                   resources, property, or other assets;
                                   conflict of interest; errors in reports
                                   and information; illegal or unethical
                                   acts; or other improper activities.
PMFC-6    Invalid Project Codes    FSOG generates invalid project             Moderate
          Correction               code reports from FFS and posts
                                   corrections to project code E0200
                                   regardless of the correct project
                                   code the employee should have
                                   charged. In addition, correction by
                                   employee or timekeeper is not
                                   performed in a timely manner.
PMFC-7    Authorization for Paid   Form A-42, FCC Authorization for           Moderate
          Overtime and Comp Time   Paid Overtime and Form A-43,
          in Lieu of Paid Overtime FCC Authorization for
                                   Compensatory Time in Lieu of Paid
                                   Overtime, were not properly
                                   completed and authorized by
                                   responsible officials in several
                                   instances.
PMFC-8    Authorization and        Credit hours reported on T&As              Moderate
          Documentation of Credit  were not always supported by a
          Hours Earned             Form 385, Notice of Credit Hours
                                   Earned.
PMFC-9    Authorization of Donated Leave donors from outside agencies         Moderate
          Leave Hours              do not always provide a copy of
                                   approval of their leave hours by
                                   their agency. Also FCC Form 100
                                   Leave Transfer Program – Request
                                   to Donate Annual Leave, Part B,
                                   required from outside agency
                                   donors was not completed.
PMFC-10   Proper Supporting        No documentation exists to support         Moderate
          Documentation for        two employees listed as having
          Compressed Work Schedule Compressed Work Schedules
                                   (CWS) based on the List of
                                   Employees by their Alternate Work
                                   Schedule as of February 16, 2005.
PMFC-11   Proper Supporting        Our audit identified that LWOP             Moderate
          Documentation for Leave  reported on T&A reports for seven
          Without Pay (LWOP)       employees on four different pay


                                         10
                                                                            Appendix 1
                                                                     Summary of Findings
Finding       Control Objective                    Condition                  Risk Levels
                   Area
                                       periods does not have supporting
                                       approved documentation.
PMFC-12   Proper Supporting            FCC could not provide the               Moderate
          Documentation for the        supporting documents or
          Approval of Negative Leave   explanations for employees with a
                                       negative leave balance as of March
                                       29, 2005.
PMFC-13   Approval to Participate in   Four employees were listed as           Moderate
          Flexible Workplace           participants in the Flexible
          Program                      Workplace Program. The Request
                                       and Agreement to Participate in the
                                       Flexible Workplace Program had
                                       not been properly signed by the
                                       designated union official for two of
                                       the employees while the last page
                                       of the said agreement was not
                                       available for the other two
                                       employees.
PMFC-14   Monitoring of leave          We identified annual leave balances     Moderate
          balances in excess of        of some employees in excess of
          allowable threshold.         allowable maximum leave carry
                                       over balances.




                                         11
                                                                                   Appendix 2
                                                         Detailed Findings and Recommendation
FINDING PMFC-1
Poor Controls over Termination of Separated Employees Network Access

Condition:
Network accounts of separated employees were not disabled on a timely basis. Our examination
of the separated employee’s report showing dates when their respective network accounts were
disabled indicate that it took between two to seven weeks to complete disabling the accounts of
six separated employees.

Criteria:
1. FCC Directive 1479.2, Computer Security Program, section 8.4 requires the Bureau/Office
   Assistant for Management to submit an email to the sign out group announcing a user’s
   intended departure date.

2. Per FCC Directive, 1479.2 pg. 28, “…routine audits of computer systems will ensure that
   only authorized users have access to the system/information; appropriate levels of access
   have been authorized and are maintained; and that previously authorized users of a system no
   longer requiring access are purged.”

3. The United States Office of Management and Budget (OMB) Circular No. A-130,
   Management of Federal Information Resources, Appendix III, Security of Federal
   Automated Information Resources, states:

   “Personnel Controls. It has long been recognized that the greatest harm has come from
   authorized individuals engaged in improper activities, whether intentional or accidental. In
   every general support system, a number of technical, operational, and management controls
   are used to prevent and detect harm. Such controls include individual accountability, "least
   privilege", and separation of duties.”

4. GAO’s Standards for Internal Control in the Federal Government indicates that access to
   resources and records should be limited to authorized individuals, and accountability for their
   custody and use should be assigned and maintained. Periodic comparison of resources with
   the recorded accountability should be made to help reduce the risk of errors, fraud, misuse, or
   unauthorized alteration. Further it states that transactions and events should be accurately
   and timely recorded.

Cause:
Based on discussions with FCC Information Technology Center (ITC) Customer Care Team
management, sign-out procedures were circumvented. This resulted in delays in getting
separating employee notifications to the front office.

Effect:
(1) Allowing separated employee access to the network violates FCC Directive 1479.2. (2)
Access to the network, after separation facilitates the potential to perform unauthorized
transactions and enhances ones’ capability to commit fraud.




                                               12
                                                                               Appendix 2
                                                     Detailed Findings and Recommendation


Recommendation:
Management should implement procedures to ensure that network accounts of separating
employees are finalized before the effective date of separation.




                                            13
                                                                                 Appendix 2
                                                       Detailed Findings and Recommendation
FINDING PMFC-2
Errors in Completing Cost Accounting Worksheets

Condition:
FCC requirements were not followed when completing the cost accounting worksheet (CAW)
required for generating T&A reports. Specifically, we examined 24 CAWs attached to
employees’ T&A reports and noted the following:

    Five instances of missing CAWs; and
    Ten instances where employee initials and dates were missing on the CAWs.

Criteria:
FCC Supplementary Guidance on T&A Reporting states: “Each employee is required to
complete and submit his or her FCC T&A/CAW together with all supporting documentation to
the Timekeeper no later than noon on the last Thursday of the pay period. The employee is
responsible for reviewing the CAW for accuracy and completeness. Once the employee has
verified the CAW is complete, he/she should initial and date the CAW and submit it to the
Timekeeper for entry.”

Cause:
Based on discussion with HRM management, oversight by respective employees was cited as the
primary cause for these deficiencies.

Effect:
 Non compliance with FCC implemented policies and procedures;
 Consistent non-compliances may suggest inefficient management which can result in paying
   unnecessary employee benefits and taxes; and
 Increase potential for unscrupulous people to inflate hours worked without being detected by
   management.

Recommendation:
Management should implement procedures to require compliance with the management policies
procedures contained in FCC Supplementary Guidance on T&A Reporting.




                                              14
                                                                                   Appendix 2
                                                         Detailed Findings and Recommendation
FINDING PMFC-3
Errors in Completing and Certifying T&A Reports

Condition:
Completion of T&A reports with their certification by supervisors, a significant task in the
payroll process, does not meet established guidelines for certifying T&A reports. Specifically,
we noted the following during our examination of 24 T&A reports:

    Eight instances where T&A reports were not initialed by the employee, or a “employee
     unavailable” stamp was not used on the T&A report when the employee was not
     available to initial their T&A report;
    Six instances where the timekeeper’s initials were missing on the T&A report; and
    Seven instances where employees’ supervisors did not sign the T&A report.

Criteria:
1. FCC Supplementary Guidance on T&A Reporting states: (i) each employee is responsible for
   reviewing the accuracy of his or her own T&A report against their respective CAW and
   supporting documentation. Upon satisfactory review, the employee should sign the T&A
   report and return to the timekeeper; (ii) The timekeeper should verify the accuracy of the
   entry of each employees’ time by comparing the T&A against the employee’s CAW. Upon
   verification of the accuracy, the timekeeper should sign the T&A report and give to the
   employee for review; and (iii) In accordance with Part I, section 206, and Part V, Section 203
   of the FCC Pay, Leave, Time and Attendance Manual, it is the responsibility of the
   supervisor to certify the accuracy of T&A reports for their employees.

2. Title 6, Chapter 5 of GAO's Policy and Procedures Manual for Guidance of Federal
   Agencies states:

   a. “The primary responsibility for authorizing and approving T&A transactions generally
      rests with employees' supervisors, who approve employees' T&A reports. Timekeepers
      and supervisors must be aware of the work time or absence of employees for whom they
      are responsible to ensure the reliability of T&A data. To the extent practical, changes to
      employees' normal work schedule should generally be approved prior to the change
      actually occurring”.

   b. “All T&A reports and related supporting documents (such as overtime pay
      authorizations) must be reviewed and approved by an authorized official. Review and
      approval should be made by the official, normally the immediate supervisor, most
      knowledgeable of the time worked and absence of the employees involved. Approval of
      T&A reports and related documents should be based on personal observation, work
      output, timekeeper verification, checking data against other independent sources, reliance
      on other controls, or a combination of these methods”.




                                               15
                                                                                    Appendix 2
                                                          Detailed Findings and Recommendation
Cause:
Based on discussion with HRM management, oversight by respective employees, timekeepers,
and supervisors were cited as the primary causes for these deficiencies.

Effect:
 Non compliance with FCC implemented policies and procedures;
 Consistent non-compliance may suggest inefficient management and inefficient management
   can result in unnecessary employees, benefits and taxes being paid;
 Management information may be inaccurate; and
 There is the possibility of the timekeeper recording employee hours worked that have not
   been properly authorized. Timesheet approved without the proper authorization and
   supervisors not detecting the error during their review will decrease the reliability of payroll
   records.

Recommendations:
1. FCC management should enforce time recording controls. To reduce the number of potential
   errors, timekeepers and supervisors should focus on the completeness and accuracy of time
   reported on the T&A reports before certifying a T&A report.
2. Management should implement procedures to enforce compliance with management policies
   procedures contained in FCC Supplementary Guidance on T&A Reporting.




                                                16
                                                                                  Appendix 2
                                                        Detailed Findings and Recommendation
FINDING PMFC-4
Errors in Documentation and Authorization of Leave Taken

Condition:
The implemented guide for administering different leave types, which stipulates the
authorization procedures and required supporting documentation were not strictly enforced.
Specifically, during our audit we examined 24 T&A reports with leave hours and noted the
following:

 Four instances of missing SF-71s;
 Four instances where the SF-71 was not authorized by employee’s supervisor;
 Three instances where the leave date precedes the approved date on the SF-71;
 Six instances where the leave hours on the CAW was different from the hours reported on the
  T&A Statement; and
 Eight instances where the leave hours on the T&A report were different from the hours
  reported on the Leave and Earnings Statement.

Criteria:
1. Handbook on Leave and Alternative Work Schedule, Section 1 states:

    “Request for Leave or Approved Absence, FCC Form 71, must be used for all requests to be
    excused from duty. Employee may not initial the T&A Report, nor any computer generated
    print out as a substitute for a correctly prepared and approved FCC Form 71.”

    “If the absence is approved by the supervisor, the T&A Clerk will post the number of hours
    of absence to the T&A Report.”

    “The Request for Leave or Approved Absences, FCC Form 71, must be attached to the
    original T&A report submitted to the payroll section at the end of the pay period, and
    maintained by the T&A Clerk.”

2. Title 6, Chapter 5 of GAO Policy and Procedures Manual for Guidance of Federal Agencies
   states: “Approval of leave must be made before the leave is taken when practical. If
   impractical, leave must be approved as soon as reasonably possible after taken.”

Cause:
Based on discussion with HRM management, oversight by respective employees and supervisors
were cited as the primary causes for these deficiencies.

Effect:
Unapproved leave taken may not be recorded resulting in inaccurate leave balances.




                                               17
                                                                                Appendix 2
                                                      Detailed Findings and Recommendation
Recommendations:
1. FCC management should enforce the controls surrounding leave authorization and recording,
   which is contained in the Handbook on Leave and Alternative Work Schedule.
2. To reduce the number of potential errors, timekeepers and supervisors should focus on the
   completeness and accuracy of time reported on the T&A reports with reference to the
   approved SF 71, before certifying a T&A report.




                                             18
                                                                                    Appendix 2
                                                          Detailed Findings and Recommendation
FINDING PMFC-5
Lack of Completed Vulnerability Assessment for HRM

Condition:
HRM has not performed a vulnerability assessment for its service centers’ activities or programs
in order to identify their susceptibility to the following:
    1. Waste, loss, unauthorized use, or misappropriation of funds, resources, property, or other
        assets;
    2. A conflict of interest;
    3. Errors in reports and information;
    4. Illegal or unethical acts; or
    5. Other improper activities.

PERM has issued an information guide on how a vulnerability assessment should be performed.

Criteria:
GAO Standards for Internal Control in the Federal Government states “Management needs to
comprehensively identify risks and should consider all significant interactions between the entity
and other parties as well as internal factors at both the entity-wide and activity level….once risks
have been identified, they should be analyzed for possible effect”.

Cause:
Per HRM management, FCC does not have a directive mandating bureaus and offices to perform
vulnerability assessments on a regular basis.

Effect:
 Management may not be aware of the existence of potential vulnerabilities in their activities
   or programs.
 Program inefficiencies may not be identified and eliminated in a timely manner.

Recommendation:
Office of Managing Director should issue a directive requiring Bureaus and Offices to perform
regular vulnerability assessments of their programs and activities that follow the guidelines
issued by PERM.




                                                19
                                                                                   Appendix 2
                                                         Detailed Findings and Recommendation
FINDING PMFC-6
Inadequate Controls Over Correction of Invalid Project Codes

Condition:
FSOG creates an invalid project code spreadsheet report listing the rejected transactions in FFS,
which is sent to HRM. To eliminate payroll rejects in FFS, the rejected FFS transactions are
posted to project code E0200 regardless of the project code the employee should have charged.
It is the responsibility of HRM to notify the employee of the incorrect project code he/she used
and to input the correct project code into the NFC system, using a correcting T&A report.
Specifically, during our audit we examined 32 reported invalid codes and noted that 30 of the
reported invalid project codes were not corrected in a timely manner. For instance an invalid
code generated in pay period 25 was not corrected until pay period 2 of the following calendar
year. Also, as of pay period 5, some invalid project codes have not been corrected from the
previous fiscal year.

Criteria:
GAO Standards for Internal Control in the Federal Government states “transactions should be
accurately recorded in a timely matter”. One of the activities used to accomplish this goal
requires performing of reconciliations and putting controls in place to detect errors.

Cause:
Per the FCC’s Financial Services Operations Group (FSOG) and HRM management, this finding
resulted primarily from:
    1. Input errors by timekeepers when entering the employees time and use of incorrect
        project codes by the employee.
    2. FCC does not have an established time frame for an employee to correct invalid time
        codes.

Effect:
Reported costs may be inaccurate and misleading, resulting in unreliable management
information for analyzing costs and making informed decisions.

Recommendation:
 Enhance T&A System capabilities to reject incorrect codes when entered in the system.
 Management should issue guidance to establish timeframes for employees to correct invalid
   project code errors.




                                                20
                                                                                 Appendix 2
                                                       Detailed Findings and Recommendation
FINDING PMFC-7
Errors in the Documentation and Authorization of Overtime Paid/Compensatory Time in
Lieu of Paid Overtime

Condition:
Completed Forms A-42, Authorization for Overtime Paid, and Form A-43, Authorization for
Compensatory Time in Lieu of Paid Overtime, reported on the T&A reports did not meet
established criteria based on the result of 24 items tested.

Our audit disclosed the following instances of non-compliance:
 Seven forms supporting Overtime/Comp time hours reported on the T&A report were
   missing;
 One incorrect form, Form A-43 was used instead of Form A-42;
 Five forms were not signed by the Assistant Bureau Chief (ABC) for Management;
 Three forms did not have the date signed by the ABC;
 One form did not have the date signed by the supervisor;
 Two forms did not have the date signed by the employee;
 Four forms indicated that the ABC signed for authorizing proposed dates after Overtime/
   Comp time was taken by the employee;
 Five forms indicated that supervisor signed for authorizing proposed dates after Overtime/
   Comp time was taken; and
 Two forms showed that the ‘Proposed Days and Hours Worked’ field (the left side of form)
   was not completed and signed.

Criteria:
1. l Part V, Section 100C, FCC Pay, Leave, Time and Attendance Manual, requires that where
   overtime has been required and approved in advance by a Bureau/Office Chief,
   Commissioner, or designee, for the employee to be compensated, form A-42 should be used
   to record and report all hours of compensatable overtime worked. This form should be
   attached to the T&A report and submitted to the Payroll Section.

2. The Instructions for Paid Overtime/Compensatory Time in Lieu Of Paid Overtime requires:
   (A) Proposed Overtime/Compensatory Hours:
            (i)     Supervisor and employee must indicate the date and hours employee is
                    estimated to work and sign the A-42/A-43.
            (ii)    Assistant Bureau Chief for Management must countersign before work
                    begins.
   (B) Overtime/Compensatory Hours Actually Worked:
            (i)     Supervisor and employee must document actual date and hours worked and
                    sign the A-42/A-43.
            (ii)     Assistant Bureau Chief for Management must countersign.



3. Title 6, Chapter 5 of GAO's Policy and Procedures Manual for Guidance of Federal
   Agencies states:



                                             21
                                                                                   Appendix 2
                                                         Detailed Findings and Recommendation
   (A) “Approval must be granted for overtime before the work has been performed when
       feasible and, when not feasible, as soon as possible after the work has been performed.
       Care must be taken to distinguish between regular overtime and irregular overtime or
       occasional overtime (or compensatory time in lieu of overtime, where allowed) in order
       for the agency to properly document and calculate an employee's overtime pay
       entitlements under title 5 of the U.S. Code (5 U.S.C. chapters 55 and 61) and the Fair
       Labor Standards Act (29 U.S.C. 201 et seq.)”.
   (B) “The official most knowledgeable of the time worked should approve any overtime or
       compensatory time. Care should be taken (1) to ensure that the overtime was approved,
       preferably in advance, and (2) that the amount and time of overtime (regular or irregular),
       credit hours, and compensatory time are accurately recorded”.

Cause:
HRM management cited the lack of appropriate oversight of respective employees and
supervisors for these instances of non-compliance.

Effect:
 Unauthorized overtime may be paid without being detected.
 Weak controls may lead to an increase in the rate of irregularities and increase the potential
   for fraud.
 Consistent non-compliance with established policies and procedures may suggest inefficient
   management and which can result in unnecessary employee pay, benefits and taxes being
   paid.

Recommendation:
HRM should issue a memorandum to emphasize that timekeepers and supervisors must follow
the documentation requirements contained in FCC Pay, Leave, Time and Attendance Manual for
requesting, authorizing, and approving overtime paid/compensatory time in lieu of paid
overtime.




                                               22
                                                                                Appendix 2
                                                      Detailed Findings and Recommendation
FINDING PMFC-8
Reported Credit Hours Lacked Supporting Documentation

Condition:
Form A-385, Notice of Credit Hours Earned, supporting credit hours reported on the T&A report
for two employees could not be provided.

Criteria:
FCC requires its employees to complete a Form A-385 whenever credit hours are earned.

Cause:
HRM management cited the lack of appropriate oversight by the respective employees for the
missing forms.

Effect:
 Unauthorized credit hours may be recorded without being detected.
 Lack of supporting documentation for official actions may indicate weak management, which
   may lead to overall low productivity.

Recommendation:
Management should develop procedures to enforce compliance with management policies and
procedures contained in FCC Supplementary Guidance on T&A Reporting.




                                             23
                                                                                Appendix 2
                                                      Detailed Findings and Recommendation
FINDING PMFC-9
Lack of Documentation to Support Leave Hours Donated by Outside Agency Employees
Under the Leave Transfer Program

Condition:
For three out of five employees examined, leave donors from outside the agency did not
  complete a Form FCC-100 Part B to accompany their agency’s donation form.
For two out of five employees examined, confirmation of donor’s leave hours from outside
  the agency did not accompany Form FCC-100 Part B.

Criteria:
OPM requires agencies to complete a Form 630B Request to Donate Annual Leave or Transfer
of Donated Leave Hours by an employee to a Leave recipient (outside agency).

Cause:
HRM management stated that policies and procedures were not effectively enforced by the
Commission.

Effect:
 Leave hours may be successfully transferred by an employee who does not have outstanding
   leave hours; thereby the objective of the program may not be achieved;
 An outside agency employee with insufficient transferable hours may successfully transfer
   leave hours to an FCC recipient;
 Transferred hours may not have an audit trail; and
 Lack of supporting documentation for official actions may indicate inefficient management,
   which may lead to overall low productivity.

Recommendation:
Management should (i) enforce OPM guidelines to enhance effectiveness of the Leave Transfer
Program, and (ii) implement programs to reduce unavailability of supporting documents.




                                             24
                                                                                  Appendix 2
                                                        Detailed Findings and Recommendation
FINDING PMFC-10
Lack of Supporting Document for Compressed Work Schedules (CWS)

Condition:
Two employees were listed as having CWS per List of Employees by their Alternate Work
Schedule as of February 16, 2005. However, the date of request of each employee in the Request
for Change in Work Schedule or Tour of Duty (Form A-354) indicated that the employees only
had an approved Form A-354 dated April 11, 2005 and April 13, 2005.

Criteria:
1. Per FCC policy posted on the Intranet, employees must request a permanent change in tour of
   duty by completing FCC Form A-354, Request for Change in Work Schedule or Tour of
   Duty, and submitting it to the employee’s supervisor. The employees should state why they
   want to change their tour of duty and when they wish this change to become effective.
   Employees may elect to switch between the flexible and compressed work schedules, or vice
   versa, but not more than once per year.

2. Per Standards for Internal Control in the Federal Government, control activities occur at all
   levels and functions of the entity. They include a wide range of diverse activities such as
   approvals, authorizations, verifications, reconciliations, performance reviews, maintenance of
   security, and the creation and maintenance of related records, which provide evidence of
   execution of these activities as well as appropriate documentation. Internal control and all
   transactions and other significant events need to be clearly documented, and the
   documentation should be readily available for examination.

Cause:
Per HRM management, form A-354s that had been completed by both employees a few years
ago had been destroyed. The employees subsequently submitted new Form A-354s on April 11,
2005 and April 13, 2005, respectively.

Effect:
 Lack of documentation creates difficulty in monitoring whether employees are working
   during the time periods as specified in the Form A-354;
 Inconsistency in maintaining supporting documents and separating documents based on the
   purpose of use; and
 Leave taken without approving supporting documentation may indicate inefficient
   management, which leads to overall low productivity.




                                               25
                                                                               Appendix 2
                                                     Detailed Findings and Recommendation
Recommendations:
1. FCC management should issue policies relating to the maintenance of supporting documents
   for monitoring purposes.
2. FCC management should also ensure that Form A-354s be maintained to monitor whether
   employees comply with the time period specified on the form.




                                            26
                                                                                 Appendix 2
                                                       Detailed Findings and Recommendation
FINDING PMFC-11
Lack of Supporting Document for Leave Without Official Pay (LWOP)

Condition:
Our audit identified that LWOP reported on T&A reports for seven employees on four different
pay periods does not have supporting approving documents.

Criteria:
Per the FCC Employee Handbook, LWOP is an approved absence from duty in a non-pay status
and supervisors may grant LWOP of up to 80 hours when the absence will benefit the individual
without unnecessarily disrupting the organization.

Cause:
HRM management stated that there is no government-wide requirement to approve employees’
LWOP.

Effect:
 Leave taken without obtaining approval would cause unnecessary disruption of work; and
 Leave taken without approving documentation may indicate inefficient management, which
   may lead to overall low productivity.

Recommendation:
FCC management should ensure that employees use leave with proper approvals. To reduce the
risk relating to the disruption of work due to leave taken without proper approvals, an
appropriate leave plan for the employee should be prepared, except in emergency situations.




                                             27
                                                                                     Appendix 2
                                                           Detailed Findings and Recommendation
FINDING PMFC-12:
Lack of Documentation for the Approval of Negative Leave

Condition:
The annual leave balances of examined employees had negative balances as of March 29, 2005.
FCC could not provide the supporting documents or explanations for the negative leave balances.

Criteria:
Per the handbook on leave and AWS for non-bargaining unit employees, annual leave is
available for use at the beginning of the year in which it is to be earned. Since their entire annual
leave accruals are available at the beginning of the leave year for non-bargaining unit employees,
advanced annual leave is not applicable. Temporary employees may only be granted leave for
the term of their appointment, which is within the leave year.

For bargaining unit employees, earned annual leave shall be granted only for the number of
hours accrued through the pay period within which the leave is taken and the employees who
wish to request advanced annual leave shall do so in writing. Normally, the completion of an
Application for Leave (Standard Form 71) which states that advance leave is being requested
would be sufficient to constitute a written request for advanced annual leave. Such requests
should be approved provided:

 The amount of annual leave requested to be advanced to the employee does not exceed the
  amount of annual leave that will accrue to the employee during the current leave year;
 The employee will be able to earn the amount of annual leave advanced; and
 Work requirements of the organization to which the employee is assigned will allow the
  employee to be absent.

Cause:
HRM management indicated that employees were granted advanced annual leave.

Effect:
 Leave taken without obtaining approval could cause unnecessary disruption of work;
 There would be possibilities to abuse leave; and
 Leave taken without approving supporting documentation may indicate inefficient
   management, which leads to overall low productivity.

Recommendations:
FCC management should ensure that employees use leave with proper approval. To reduce the
risk related to the disruption of work due to leave taken without a proper approval, FCC should
implement procedures to provide supporting documents for the leave granted in advance to
employees. They should also require that an appropriate leave plan be prepared by employees,
except in emergency situations.




                                                 28
                                                                                 Appendix 2
                                                       Detailed Findings and Recommendation
FINDING PMFC-13:
Improper Approval to Participate in the Flexible Workplace Program

Condition:
Four employees were listed as participating in the Flexible Workplace Program (FWP). The FCC
Request and Agreement to Participate in the Flexible Workplace Program document had not
been properly signed by the designated union official for two employees while the last page of
the said agreement was not available for the other two employees.

Criteria:
In terms of the Request and Agreement to Participate in the Flexible Workplace Program, an
employee has to submit the duly completed form to the supervisor through a designated National
Treasury Employees Union official. The employee has to sign the agreement with their
supervisor and designated union official subsequently signing the same document.

Cause:
HRM management indicated that there is no requirement for employees on the flexible work
schedule to complete a form in order to receive approval to participate in FWP.

Effect:
 Lack of documentation creates difficulty in monitoring where the employee is working under
   the FWP; and
 Lack of proper documentation creates difficulty/delay in decision making by the
   management.

Recommendation:
3. FCC management should also ensure that the Request and Agreement to Participate in the
   Flexible Workplace Program be maintained in order to monitor employee’s compliance with
   the agreement.




                                              29
                                                                                 Appendix 2
                                                       Detailed Findings and Recommendation
FINDING PMFC-14:
Ineffective monitoring of leave balances in excess of allowable thresholds.

Condition:
Our audit identified some employees carrying annual leave balances in excess of the maximum
leave carry over balances as of end of pay period 1 (January 10, 2005). Management did not
provide approved documentation to support leave balance in excess of approved limit.

Criteria:
Per the Employee Handbook, federal employees in the GS category are allowed to carryover
annual leave up to a maximum of 240 hours while the maximum carry over for SES employees
is 720 hours.

Cause:
HRM management stated that the leave ceiling for some executives is fixed in excess of the 720
hours.

Effect:
 Leave balances approved in excess of the maximum leave allowed may result in violation of
   policies;
 Potential for abuse of the leave process exists; and
 Leave taken without the supporting approving documentation may indicate inefficient
   management which could lead to overall low productivity.

Recommendation:
FCC management should strengthen procedures to ensure that employees’ annual leave carry
over is within the maximum limits.




                                              30
